                                Report No. 06-INTEL-03
                                       February 28, 2006




      DEPARTMENT OF DEFENSE
             OFFICE OF
        INSPECTOR GENERAL




DEPUTY INSPECTOR GENERAL FOR INTELLIGENCE

 Inspection Guidelines for DoD Research and
    Technology Protection, Security, and
         Counterintelligence for 2006
Additional Information and Copies

To obtain additional copies of this report, contact Mr. Donald A. Ragley at (703)
604-8896 (DSN 664-8896) or fax (703) 604-0045.

Suggestions for Future Evaluations

To suggest ideas for or to request future evaluations of Defense intelligence issues,
contact the Office of the Deputy Inspector General for Intelligence at (703)
604-8896 (DSN 664-8896) or fax (703) 604-0045. Ideas and requests can also be
mailed to:

              Office of the Deputy Inspector General for Intelligence
               Department of Defense Office of Inspector General
                        400 Army Navy Drive (Room 703)
                            Arlington, VA 22202-4704
               Department of Defense Office of Inspector General
Report No. 06-INTEL-03                                                February 28, 2006
 (Project No. D2006-DINT01-0031)

         Inspection Guidelines for DoD Research and Technology
           Protection, Security and Counterintelligence for 2006

                                   Executive Summary

Who Should Read This Report and Why? DoD civilian and military personnel who
are responsible for, supervise any aspect of, or provide oversight for the protection of
research and technology information in DoD research, development, test and evaluation
facilities should read this report. This report publishes the guidelines for inspecting
research and technology protection, security, and counterintelligence practices at DoD
research, development, test, and evaluation facilities to enhance Department-wide
consistency in the oversight process.

Background. These guidelines satisfy the requirement in the Deputy Secretary of
Defense memorandum for Inspection of Security and Counterintelligence Practices at
Laboratories and Centers, February 17, 2000. On May 8, 2002, the DoD Inspector
General; the Deputy Under Secretary of Defense for Laboratories and Basic Sciences; the
Director, Operational Test and Evaluation; the Service Inspectors General; and the
Director, Program Integration, Internal Management Review (formerly Internal
Assessments), Missile Defense Agency signed a memorandum of understanding on
security, technology protection, and counterintelligence inspections.

The memorandum of understanding requires participating Inspectors General and the
Director, Program Integration, Internal Management Review, Missile Defense Agency to
inspect research, development, test, and evaluation facilities as part of their normal
inspection cycle, and prepare and forward significant findings and recommendations to
the DoD Office of Inspector General at the end of each inspection. The DoD Office of
Inspector General issues the summary report of inspections of security, technology
protection, and counterintelligence practices at DoD research, development, test, and
evaluation facilities.

Results. This report updates the Security, Research and Technology Protection, and
Counterintelligence Inspection Guidelines, Report No. 03-INTEL-09, May 6, 2003.

Management Comments. No written response to this report was required.
Table of Contents
Executive Summary                          i

Background                                1

Objectives                                1

Areas for Inspections
     Security                              2
     Research and Technology Protection   10
     Counterintelligence                  13
     International Security               14

Appendixes
     A. Scope and Methodology             17
     B. References                        18
     C. Report Distribution               21
Background
    In early 1999, the Deputy Secretary of Defense directed the Service Inspectors
    General to survey the counterintelligence and security programs at more
    than 60 research, development, test and evaluation facilities. The inspection
    teams identified a number of recommendations related to the specific sites. As a
    result of these efforts, the Deputy Secretary chartered an Overarching Integrated
    Process Team to better frame the recommendations and to oversee their
    implementation. From February 12 to May 12, 2000, the Deputy Secretary signed
    seven memoranda containing 27 tasks aimed at enhancing counterintelligence and
    security support to research, development, test and evaluation facilities and the
    acquisition process.

    On February 17, 2000, the Deputy Secretary signed a memorandum requesting
    that the DoD Office of Inspector General develop a uniform system of periodic
    reviews, through the existing agency and Service inspection processes, for
    compliance with DoD Directives concerning research and technology protection,
    security, and counterintelligence practices. Those reviews were to assist in
    protecting the technology-dependent, cutting edge of U.S. weapon systems. The
    memorandum also requested that the DoD Office of Inspector General develop
    inspection list guidelines for DoD Inspectors General to enhance consistency.
    On May 8, 2002, the DoD Inspector General; the Deputy Under Secretary of
    Defense for Laboratories and Basic Sciences; the Director, Operational Test and
    Evaluation; the Service Inspectors General; and the Director, Program Integration,
    Internal Management Review (formerly Internal Assessments), Missile Defense
    Agency signed a memorandum of understanding on research and technology
    protection, security, and counterintelligence inspections.

    The memorandum of understanding requires participating Inspectors General to
    prepare and forward any significant findings and recommendations to the DoD
    Office of Inspector General at the end of each inspection. It also requires the
    DoD Office of Inspector General to issue a summary report of inspections of
    research and technology protection, security, and counterintelligence practices at
    DoD research, development, test, and evaluation facilities.

Objectives
    The overall objective was to update the guidelines that comprise DoD policy and
    to improve DoD-wide consistency in inspections of research, development, test,
    and evaluation facilities. See Appendix A for a discussion of the scope and
    methodology.




                                         1
               Areas for Inspections
               We updated the guidelines on DoD policy to include ways to better assess
               how DoD implements policy for research and technology protection,
               security, and counterintelligence. These guidelines focus on key areas of
               the requirement in the Deputy Secretary of Defense February 17, 2000,
               memorandum, to “develop inspection list guidelines for Department-wide
               Inspectors General to enhance consistency across DoD.” Specifically, the
               inspection areas are research and technology protection, security,
               counterintelligence, and international security.

Security

     General Security

     Have security managers or other key security staff, or both, received specialized
     training to support Research, Development, Test and Evaluation facilities?

     Is the security budget adequate to meet all requirements? If not, what are the
     effects?

     Is the security staff adequate in size, rank/grade, and position within the
     organization?

     Physical Security

     Is there a designated point of contact to oversee the physical security program in
     accordance with, DoD Regulation 5200.8, Chapter 2, Section C2.2?

     Are policies and procedures for physical security standards in place (e.g., vault
     and secure room construction standards, intrusion detection system standards,
     access controls and lock replacement), in accordance with DoD
     Regulation 5200.1, Appendix 7?

     Are physical security planning procedures for acquisition of major systems
     appropriate and in accordance with DoD Regulation 5200.8, Chapter 2,
     Sections C2.5. and C2.6.; and Figure C2.F2?

     Do procedures and policies in place restrict access to installations and facilities, in
     accordance with DoD Regulation 5200.8, Chapter 3, Sections C3.1. and C3.2.
     Specifically, do they:

           •   Use a security-in-depth concept to provide graduated levels of protection
               from the installation perimeter to critical assets?

           •   Determine the degree of control required over personnel and equipment
               entering or leaving the installation?




                                            2
   •   Prescribe procedures for inspecting persons, property, and vehicles at
       entry and exit points of installations, at designated secure areas within an
       installation, and for searching persons and their possessions while they are
       on the installation?

   •   Enforce the removal of, or deny access to, persons who are a threat to the
       order, security, and discipline of the installation?

   •   Designate restricted areas to safeguard property or material?

   •   Use random antiterrorism measures within existing security operations to
       reduce patterns, change schedules, and visibly enhance the security profile
       to reduce the effectiveness of preoperational surveillance by hostile
       elements?

Does the security system provide the capability to detect, assess, communicate,
delay, and respond to an unauthorized attempt at entry, in accordance with DoD
Regulation 5200.8, Chapter 2, Section C2.3.2.?

Is there a matrix of physical security threats to use as a guide to develop program,
system, command, and installation threat statements that assess potential security
threats to critical assets, in accordance with DoD Regulation 5200.8, Chapter 2,
Section C2.4. and Figures C2.F.1. and C2.F2?

Are plans to increase vigilance and restrict access in place at installations and
facilities under the following situations, in accordance with
DoD Regulation 5200.8, Chapter 3, Section C3.4.?:

   •   National emergencies?

   •   Disasters?

   •   Terrorist threat conditions (See DoD Directive 2000.12 for further
       information)?

   •   Significant criminal activity?

   •   Civil disturbances?

   •   Other contingencies that would seriously affect the ability of installation
       personnel to perform their mission?

Personnel Security

Has the organization designated a representative to direct and administer the
Personnel Security Program (DoD Directive 5200.2, Section 4.3)?




                                        3
Are personnel security investigations limited to those essential to current
operations and authorized by DoD policies, in accordance with
DoD Regulation 5200.2, Chapter 3, Sections C3.1. and C3.2.; and Appendix 3,
Tables 1-5?

Are personnel assigned to proper billets (e.g., special access program, Top
Secret/Sensitive Compartmented Information)?

Has the organization designated sensitive positions that require a personnel
security investigation in accordance with DoD Regulation 5200.2, Chapter 3,
Sections C3.1. and C3.2.; and Appendix 3, Tables 1-5? Was the designating
official authorized to perform this function, in accordance with DoD
Regulation 5200.2, Appendix 5?

Is the process for issuing Top Secret clearances standardized and controlled, in
accordance with DoD Regulation 5200.2, Chapter 3, Section C3.1.5.?

Are periodic reinvestigations submitted in a timely manner, in accordance with
DoD Regulation 5200.2, Section C3.7.?

Are policies and procedures in place for processing security clearances for
military, DoD civilian, and contractor personnel who are employed by or are
serving in a consulting capacity to DoD and who require access to classified
information as part of their official duties, in accordance with
DoD Regulation 5200.2, Chapters 2, 3, and 9; and Appendixes 3, 4, and 8?

Are Limited Access Authorization(s) granted to non-U.S. citizens under
compelling circumstances or to further the DoD mission, in accordance with
DoD Regulation 5200.2, Sections C2.1.1. and C3.4.3.; and Appendixes 5 and 6?

Information Security

Has the organization committed the necessary resources for the effective
implementation of the DoD Information Security Program, in accordance with
DoD Regulation 5200.1, Chapter 1, Section C1.2.2.2.?

Has the organization designated a security manager and provided that person with
the requisite training to provide proper management and oversight of the
organization’s Information Security Program, especially those elements which
create, handle, or store classified information, in accordance with
DoD Regulation 5200.1, Chapter 1, Section C1.2.2.3. and Chapter 9?

Is all classified information (hard-copy documents and automated information
systems media) clearly labeled, designated, or marked, in accordance with
DoD Regulation 5200.1, Chapter 5 and DoD Pamphlet 5200.1?

Are policies and procedures in place for transmitting and transporting classified
information or material approved for release within DoD or to foreign
governments, in accordance with DoD Regulation 5200.1, Chapter 7 and
Appendix 8?



                                     4
Are procedures in place for reporting compromises of classified information or
incidents that may put classified information at risk of compromise, in accordance
with DoD Regulation 5200.1, Chapter 10?

   •   If a compromise of a foreign government’s classified information
       occurred, were reports submitted to the Director, International Security
       Programs, Office of the Under Secretary of Defense (Policy), in
       accordance with DoD Regulation 5200.1, Chapter 10, Section C10.1.2.8.?

   •   Has classified information for DoD special access programs been
       compromised, and, if so, were reports submitted to the Director, Special
       Access Programs, Office of the Under Secretary of Defense (Policy), in
       accordance with DoD Regulation 5200.1, Chapter 10, Section C10.1.2.9.?

   •   Have computer systems, terminals, or equipment been compromised, and,
       if so, were reports submitted through appropriate channels to the Director,
       Information Assurance, Office of the Deputy Assistant Secretary of
       Defense (Security and Information Operations), in accordance with
       DoD Regulation 5200.1, Chapter 10, Section C10.1.2.7.?

Has the security manager established and maintained an ongoing self-inspection
program that includes a periodic review and assessment of the facility’s classified
products, in accordance with DoD Regulation 5200.1, Chapter 1,
Section C1.2.3.4.?

Is there a coordination process in place for host, tenant, and visiting security
managers?

Are policies and procedures in place for sponsoring conferences, seminars,
symposia, exhibits, or conventions at which classified information is disclosed
and which is conducted by a DoD Component, by a cleared DoD contractor, or by
an association, institute, or society whose membership consists of contractors,
contractor employees, or DoD personnel, in accordance with
DoD Regulation 5220.22, Chapter 1, Section C1.4.?

Information Assurance

Does the organization have an assigned Designated Approving Authority for its
information systems, in accordance with DoD Directive 8500.1,
Paragraphs 4.14.3 and 4.25?

Has the organization designated, in writing, all information assurance-related
positions (e.g., information assurance manager, information assurance officers,
and privileged users), in accordance with DoD Instruction 8500.2, Section 5.8?

Are procedures in place for the Information Assurance Officer to properly report
information assurance incidents to the Designated Approving Authority and the
DoD reporting chain, as required?

Are procedures in place for the information assurance manager and the
information assurance officer to implement protective measures or


                                      5
countermeasures in response to an information assurance incident or
vulnerability?

Is information assurance-related documentation for DoD information systems
current and accessible to properly authorized individuals?

Have information systems been categorized as automated information systems
applications, enclaves (which include networks), outsourced information
technology-based processes, or platform information technology connections, in
accordance with DoD Directive 8500.1, Paragraph 4.2?

Have information systems been assigned a mission assurance category and a
confidentiality level based on the classification or sensitivity of the information
processed, in accordance with DoD Instruction 8500.2, Enclosure 4,
Paragraph E4.1.9.?

Are applicable information assurance controls in place for the appropriate mission
assurance category and information system confidentiality levels, in accordance
with DoD Instruction 8500.2, Enclosure 4 and its attachments?

Have Information Technology Position Categories been designated for personnel
occupying information systems positions performing on unclassified information
systems, in accordance with DoD Instruction 8500.2, Enclosure 2,
Paragraph E2.1.36, and DoD Regulation 5200.2?

Do information assurance managers, information assurance officers, and
privileged users hold appropriate U.S. Government security clearances
commensurate with the level of information processed by the facility’s
information systems or enclaves?

Do privileged-user personnel with management access to unclassified information
systems have the appropriate background investigation, in accordance with
DoD Instruction 8500.2, Enclosure 3, Table E3.T1?

Are personnel granted access to DoD information systems only on a need-to-
know basis, in accordance with DoD Directive 8500.1, Paragraph 4.8 and
DoD Instruction 8500.2, Paragraph 5.7.11?

Is foreign national access to information available on information systems
controlled, in accordance with DoD Directive 5230.20, DoD Directive 8500.1,
and DoD Instruction 8500.2?

Are all DoD information systems certified and accredited, in accordance with
DoD Directive 8500.1 and DoD Instructions 8500.2 and 5200.40?

Does the facility have processes in place for reviewing and evaluating the content
of all its associated Internet sites to determine whether they comply with DoD
Web-site Administration and Procedures, November 25, 1998, and updates?




                                      6
Is the Information Assurance Vulnerability Alert program managed in accordance
with Deputy Secretary of Defense memorandum, “DoD Information Assurance
Vulnerability Alert,” December 30, 1999?

Is information assurance awareness training provided to all personnel with access
to DoD information systems, in accordance with DoD Instruction 8500.2,
Section 5.7.7.?

Operations Security

Has an operations security program been established, in accordance with National
Security Decision Directive 298 and DoD Directive 5205.2, Paragraph 5.2.?

Are the operations security plans and programs reviewed and validated annually,
in accordance with DoD Directive 5205.2, Paragraph 5.2.1.4.?

Is there an operations security education and awareness training program and does
it comply with DoD Directive 5205.2, Paragraph 5.2.1.3.?

Industrial Security

Does the contractor have a designated security officer?

Were operations security requirements and security clauses included in contracts,
when applicable, in accordance with DoD Directive 5205.2, Paragraph 5.2.4.?

Are policies and procedures in place for sponsoring conferences, seminars,
symposia, exhibits, or conventions at which classified information is disclosed
and which is conducted by a DoD Component, by a cleared DoD contractor, or by
an association, institute, or society whose membership consists of contractors,
contractor employees, or DoD personnel, in accordance with
DoD Regulation 5220.22, Chapter 1, Section C1.4.?

Does the Component issue any classified contracts to facilities that are under
foreign ownership, control, or influence? If so, how many? Does each facility
that is under significant foreign ownership, control, or influence have a security
clearance verification letter issued by the Defense Security Service that reflects
the vehicle (Special Security Agreement, Proxy Agreement, Voting Trust
Agreement) put in place to mitigate/negate the facility’s significant foreign
ownership, control, or influence, in accordance with DoD Manual 5220.22,
“National Industrial Security Program Operating Manual,” Chapter 2, Section 3?

If the Component issued classified contracts to facilities under significant foreign
ownership, control, or influence, has the Component contacted the applicable
Defense Security Service office to determine how the foreign owned, controlled,
or influenced mitigation/negation vehicle is working, in accordance with
DoD Manual 5220.22, Chapter 2, Section 3?

Does the organization use DD Form 254, “DoD Contract Security Classification
Specification” and the guidance contained in DoD Regulation 5220.22,



                                      7
Appendix 4, when considering and applying classifications to a particular plan,
program, project or study?

Has the organization outlined the industrial security functional responsibilities of
contracting officers commensurate with those outlined in
DoD Regulation 5220.22, Appendix 3?

Does the organization conduct analysis and take precautions before it authorizes
contractors to release unclassified economic and technical information in press
releases, advertisements, notices to stockholders, and annual or quarterly reports
that could contribute to an accurate appraisal of the strategic intentions of the
United States, in accordance with DoD Regulation 5220.22, Appendix 1?

Are security policies and procedures in place for contractor visits to the activities,
in accordance with DoD Regulation 5220.22, Chapter 3?

Are procedures in place to conduct administrative inquiries, investigations, and
other administrative actions in connection with reports of sabotage, espionage,
and subversive activities, and the loss, compromise, suspected compromise, or
security violations involving the United States and foreign classified information
established as outlined in DoD Regulation 5200.1, Chapter 10 and
DoD Regulation 5220.22, Chapter 5?

Are procedures in place for coordinating with the Defense Security Service on
security issues (e.g., security violations, visit control, and security education)
involving cleared contractor personnel or facilities?

Has the organization prescribed the requirements and established the procedures
to identify the classification of information turned over to contractors? Has the
organization outlined the responsibility for issuing instructions for disposing of
classified information on final delivery of goods or services or on termination of a
classified contract? Has the organization also identified other security
requirements for prime contracts and subcontracts, in accordance with
DoD Regulation 5220.22, Chapter 7?

Security Education

Has an employee security education program been established, evaluated, and
maintained, in accordance with DoD Regulation 5200.1, Chapter 9?

Are employees aware of their security responsibilities, in accordance with
DoD Regulation 5200.1, Chapter 9 and DoD Regulation 5200.2, Chapter 9,
Section C9.2.?

Has the organization developed a foreign travel briefing for personnel with access
to classified information to alert them to possible exploitation by foreign
intelligence services, in accordance with DoD Regulation 5200.2, Chapter 9,
Sections C9.1.4. and C9.2.4.?

Has an operations security education and awareness training program been
established, in accordance with DoD Directive 5205.2, Paragraph 5.2.1.3.?


                                      8
Does the security education program address the need to protect classified
information and hardware and any other information or hardware that is
considered sensitive by the organization?

Has the organization addressed the educational aspects and training requirements
of the DoD Component’s applicable regulations or DoD Regulation 5220.22,
Chapter 6?

Has the organization developed a program to periodically brief personnel on the
threats posed by foreign intelligence, foreign commercial enterprises, terrorists,
computer intruders, and unauthorized disclosure, in accordance with
DoD Instruction 5240.6, Paragraph 4.2 and 6.1?

Has the organization, where appropriate, developed training for implementing
acquisition program protection and managing risk referred to in
DoD Directive 5200.39, Paragraph 4.7, and DoD Manual 5200.1, Section C2.9.?

Is the security training program adequate to prepare the designated officer to
oversee the activity’s Information Security Program?




                                     9
Research and Technology Protection

     Counterintelligence Support for Facilities

     Has critical program information been identified for the counterintelligence
     support plan?

     Does the facility have an approved counterintelligence support plan?

     Are agreed-upon counterintelligence support activities in the counterintelligence
     support plan being accomplished?

     Are full-time, dedicated, counterintelligence specialists from DoD Components
     assigned to provide research and technology protection? If not, what type of
     service is provided? Is this adequate?

     Does the facility or its programs have a current Multidiscipline
     Counterintelligence Threat Assessment?

     Are the Program Managers or key acquisition program personnel, or both,
     receiving threat reports, threat estimates, and other threat analysis products on
     research and technology protection from DoD Component counterintelligence
     agencies on a recurring basis?

     Are security, management, and acquisition program personnel kept current about
     local matters of counterintelligence interest?

     Security and Counterintelligence Support for Acquisition Systems

     Deputy Secretary of Defense memorandum, “Cancellation of DoD 5000 Defense
     Acquisition Policy Documents,” October 30, 2002, replaced
     DoD Directive 5000.1, DoD Instruction 5000.2, and DoD Regulation 5000.2 with
     the Interim Defense Acquisition Guidebook, October 17, 2004.

     Has the organization identified its critical program information in accordance with
     DoD Directive 5200.39, Paragraph 4.1. and the Interim Defense Acquisition
     Guidebook, Chapter 8?

     Have programs with critical program information completed the following tasks,
     in accordance with DoD Directive 5200.39:

        •   Identified program goals and objectives to the supporting security,
            counterintelligence, and intelligence organizations (Paragraph 4.2.)?

        •   Identified system vulnerabilities (Paragraph 4.2.)?

        •   Performed risk management evaluations for cost-effective measures
            (Paragraph 4.2.)?




                                          10
   •   Developed a program protection plan as described in DoD Manual 5200.1
       (Chapters 2 and 3) and the Interim Defense Acquisition Guidebook,
       approved by the program manager, and reviewed by the milestone
       decision authority?

   •   Reported incidents of loss, compromise, or theft of identified critical
       program information in accordance with procedures in
       DoD Instruction 5240.4 and DoD Regulation 5200.1, Chapter 10?

Does the organization or acquisition program manager provide tailored
counterintelligence support to acquisition programs with critical program
information throughout their life cycles in accordance with
DoD Directive 5200.39 and the Interim Defense Acquisition Guidebook,
Chapter 8?

Does the program protection plan for each acquisition program with critical
program information include an approved counterintelligence support plan?

Is the life-cycle counterintelligence support that is documented in the
counterintelligence support plan being provided to protect critical program
information?

Does the counterintelligence support plan include all required annexes for each
facility where there is critical program information?

Is a DoD counterintelligence agency providing agreed-upon counterintelligence
support as stated in the counterintelligence support plan?

Have the countermeasures identified in the program protection plan been
employed in accordance with DoD Manual 5200.1, Section C3.9? Do the
program manager and the program manager’s staff know the results of the
employment of the countermeasures?

Did the program manager request a multidiscipline counterintelligence threat
assessment for programs having critical program information, in accordance with
DoD Manual 5200.1, Section C3.8.? If so, did a DoD Component
counterintelligence agency provide the assessment? How current is the
document?

Is the program manager receiving foreign intelligence, and other related threats to
acquisition programs with critical program information, from DoD
counterintelligence and other agencies. Has the program manager received
updated threat and other counterintelligence information from the point of contact
of each program with critical program information throughout the life cycle of the
program, in accordance with the Interim Defense Acquisition Guidebook,
Chapter 8?

Did the program manager document and implement anti-tamper measures for
programs or systems with critical program information, in accordance with the
Interim Defense Acquisition Guidebook, Chapter 8?



                                    11
If the program manager determines that there is no critical program information
associated with the program (neither integral to the program nor inherited from a
supporting program), a program protection plan is not required. Has the program
manager made this determination in writing for review by the milestone decision
authority, in accordance with DoD Directive 5200.39, Section 4.3.3.?

Is controlled unclassified information about programs, technologies, or systems
identified, controlled, and protected from unauthorized disclosure, in accordance
with DoD Regulation 5200.1, Appendix 3?

Has an integrated process team been established to develop program-specific
protection plans and to coordinate security, counterintelligence, and intelligence
issues as outlined in DoD Directive 5200.39, Section 4.5., and described in
DoD Manual 5200.1, Section C3.2.?

Is basic DoD acquisition indoctrination and/or unique business training available
for responsible security and counterintelligence personnel? Have they received
that training?




                                     12
Counterintelligence

     Counterintelligence

     Are records of incidents and reported information maintained by the organization,
     in accordance with DoD Instruction 5240.6, Paragraphs 4.1. and 6.2.?

     If the organization is a DoD Component that does not have a counterintelligence
     capability, as highlighted in the Lead Agency assignment list in
     DoD Instruction 5240.10, Enclosures 4 and 5, does the Component and its
     supporting counterintelligence office have a signed counterintelligence support
     agreement, in accordance with DoD Instruction 5240.10, Paragraph 5.5.7.1.?

     Have all counterintelligence field personnel providing research and technology
     protection support received or scheduled required specialized training on how to
     perform this mission? If not, does the organization have a plan to train all
     personnel who require the specialized training?

     Are dedicated, full-time counterintelligence specialists assigned to research and
     technology protection duties at major research, development, test, and evaluation
     sites?

     Does the unit/program/activity need technical surveillance countermeasures
     support? If so, was the support provided and was it timely?

     Has the counterintelligence and security program been assessed (once that
     program has been started)? When was the last assessment?

     If you need or receive counterintelligence support, on a scale of 1 to 10, with 1
     being the lowest and 10 being the highest, how would you rate the quality of the
     support you receive from your local counterintelligence office? Please explain.




                                         13
International Security

     Disclosure of Classified Military Information to Foreign Governments

     Has the organization designated a disclosure authority, in accordance with
     DoD Directive 5230.11, Paragraphs 4.1. and 5.2.?

     Is the designated disclosure authority familiar with the National Disclosure
     Policy-1, “National Policy and Procedures for the Disclosure of Classified
     Military Information to Foreign Governments and International Organizations,”
     and DoD Directive 5230.11?

     When classified military information was disclosed to foreign governments in
     support of a lawful and authorized U.S. Government purpose by individuals who
     were specifically delegated disclosure authority:

        •   Were the disclosures made, in accordance with National Disclosure
            Policy-1 and DoD Directive 5230.11?

        •   Did the designated disclosure authorities receive security assurance on the
            individuals who were to receive the information, in accordance with
            DoD Directive 5230.11, Paragraph 4.4. and DoD Regulation 5200.1?

        •   Did the designated disclosure authority authorize, in advance, proposals to
            be made to foreign governments that could lead to the eventual disclosure
            of classified military material, technology or information, in accordance
            with DoD Directive 5230.11, Paragraph 4.5.?

        •   Were disclosures and denials of classified military information reported in
            the Foreign Disclosure and Technical Information System, in accordance
            with DoD Instruction 5230.18 and DoD Directive 5230.11?

     Does the organization have procedures in place to preclude unauthorized access to
     controlled unclassified information and classified information by foreign visitors
     or their assignees, in accordance with DoD Directive 5230.20 and
     DoD Regulation 5200.1?

     Did participation of foreign nationals or government representatives in classified
     meetings and conferences at the facility comply with the requirements of
     DoD Directive 5230.20 and DoD Directive 5230.11; that is, was assurance
     obtained in writing from the responsible Government foreign disclosure office(s)
     that the information to be presented was cleared for foreign disclosure?

     Do the organization’s procedures for releasing and transmitting classified
     information to foreign governments comply with the requirements of
     DoD Regulation 5200.1, Chapter 7 and Appendix 8?




                                         14
Foreign Visits, Assignments, Exchanges and Travel

Is an automated capability or a visitor log maintained to track and document
foreign visitor access at sensitive facilities?

Is confirmation of automated information on foreign visitors provided to the
Counterintelligence Field Activity?

Are counterintelligence personnel reviewing the foreign visits system database for
trends or data to be extracted for analysis?

Are commanders informed of how many foreign visitors are received, the reason
for their visit, when they arrive, how long they stay, and what they are doing?

Do employees receive a security briefing before they visit foreign research
facilities or attend foreign professional conferences?

Do counterintelligence personnel interview employees after employees return
from travel to foreign laboratories or professional conferences?

Does any counterintelligence entity advise sponsoring organization personnel
about the possible implications of their sponsorship of individual foreign visitors
to the organization before and after visits?

Do procedures for approving each short- or long-term foreign visit differ for
classified information and unclassified information?

Are reporting procedures in place to encourage employees to report suspicious
contacts with foreign visitors to the security manager or a counterintelligence
official?

Does the security manager or a counterintelligence official brief employees before
and after foreign visits to the facility?

Does a counterintelligence entity report the results of foreign travel interviews
and other anomalous incidents regarding laboratory employees’contact with
foreign visitors?

Is the facility in compliance with the visitor control and processing requirements,
as stated in DoD Directive 5230.20? Is an appropriate international agreement in
place to cover the visit or assignment of foreign personnel for more than 30 days?

Do counterintelligence personnel conduct name checks on foreign visitors and
report the results to the appropriate facility personnel?

Are security procedures in place for foreign nationals at the facility? If so, what
are they?

   •   Are access controls in place for automated information systems?

   •   Do e-mail addresses clearly identify foreign nationals?


                                     15
   •   Do badges identify the bearer as a foreign national?

Has a point of contact been designated to control the activities of foreign visitors,
cooperative program personnel, foreign liaison officers, and exchange personnel?

Is a designated official reviewing the organization’s compliance with
DoD Directive 5230.11, applicable DoD Component guidelines for the release of
classified and controlled unclassified information, and the specific disclosure
guidelines established in the pertinent Delegation of Disclosure Authority Letter,
in accordance with DoD Directive 5230.20?

Are all foreign nationals who are authorized unescorted access to DoD facilities
issued with badges or passes that clearly identify them as foreign nationals, in
accordance with DoD Directive 5230.20, Paragraph 4.12.?

Are procedures in place for releasing and transmitting controlled unclassified
information, such as information subject to export controls, in accordance with
DoD Regulation 5200.1, Appendix 3, and DoD Directive 5230.20,
Paragraph 4.10.?

Has the organization coordinated with the Defense Security Service and
appropriate DoD Components on the assignment of foreign liaison officers or
extended visitors performing on a classified contract at a DoD-cleared contractor
facility, in accordance with DoD Directive 5230.20?

Arms Control

Do facility security plans, policies, and procedures appropriately consider arms
control agreements if the facility or program is involved in implementing arms
control, in accordance with DoD Directive 5205.10, Paragraph 4.2?




                                     16
Appendix A. Scope and Methodology
   The DoD Inspectors General or officials responsible for providing oversight to
   research, development, test, and evaluation facilities should use the guidelines to
   assess how DoD implements policy for research and technology protection,
   security, and counterintelligence. We updated each reference from the 2003
   inspection guidelines, then coordinated the revised guidelines with DoD
   Inspectors General or officials responsible for providing oversight to research,
   development, test, and evaluation facilities to ensure the currency of the
   guidelines.

   Our scope was limited in that we did not include tests of management controls or
   validate the information or results reported in summarized reports. However,
   DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
   and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
   August 28, 1996, require DoD organizations to implement a comprehensive
   system of management controls that provides reasonable assurance that programs
   are operating as intended and that evaluating the adequacy of management
   controls should be an integral aspect of the inspection program.




                                        17
Appendix B. References
   National Security Decision Directive 298, “National Operations Security
   Program,” January 22, 1998. http://www.fas.org/irp/offdocs/nsdd298.htm

   National Disclosure Policy-1, “National Policy and Procedures for the Disclosure
   of Classified Military Information to Foreign Governments and International
   Organizations.” (Classified)

   Department of Defense Directive 2000.12, “DoD Antiterrorism (AT) Program,”
   August 18, 2003. http://www.dtic.mil/whs/directives/corres/html/200012.htm

   Department of Defense Directive 5200.2, “DoD Personnel Security Program,”
   April 9, 1999. http://www.dtic.mil/whs/directives/corres/html/52002.htm
   Department of Defense Directive 5200.39, “Security, Intelligence, and
   Counterintelligence Support to Acquisition Program Protection,
   “September 10, 1997. http://www.dtic.mil/whs/directives/corres/html/520039.htm

   Department of Defense Directive 5205.2, “DoD Operations Security (OPSEC)
   Program,” November 29, 1999.
   http://www.dtic.mil/whs/directives/corres/html/52052.htm

   Department of Defense Directive 5205.10, “Department of Defense Treaty
   Inspection Readiness Program (DTIRP),” December 5, 2000.
   http://www.dtic.mil/whs/directives/corres/html/520510.htm

   Department of Defense Directive 5230.11, “Disclosure of Classified Military
   Information to Foreign Governments and International Organizations,”
   June 16, 1992. http://www.dtic.mil/whs/directives/corres/html/523011.htm
   Department of Defense Directive 5230.20, “Visits and Assignments of Foreign
   Nationals,” June 22, 2005.
   http://www.dtic.mil/whs/directives/corres/html/523020.htm

   Department of Defense Directive 8500.1, “Information Assurance (IA),”
   October 24, 2002.
   http://www.dtic.mil/whs/directives/corres/pdf/d85001_102402/d85001p.pdf

   Department of Defense Instruction 5230.18, “DoD Foreign Disclosure and
   Technical Information System (FORDTIS),” November 6, 1984.
   http://www.dtic.mil/whs/directives/corres/html/523018.htm

   Department of Defense Instruction 5200.40, “DoD Information Technology
   Security Certification and Accreditation (C&A) Process (DITSCAP),”
   December 30, 1997.
   http://www.dtic.mil/whs/directives/corres/pdf/i520040_123097/i520040p.pdf




                                      18
Department of Defense Instruction 5240.4, “Reporting of Counterintelligence and
Criminal Violations,” September 22, 1992.
http://www.dtic.mil/whs/directives/corres/html/52404.htm

Department of Defense Instruction 5240.10, “Counterintelligence Support to the
Combatant Commands and the Defense Agencies,” May 14, 2004.
http://www.dtic.mil/whs/directives/corres/html/524010.htm

Department of Defense Instruction 5240.6, “Counterintelligence (CI) Awareness,
Briefing, and Reporting Programs,” August 7, 2004.
http://www.dtic.mil/whs/directives/corres/html/52406.htm

Department of Defense Instruction 8500.2, “Information Assurance (IA)
Implementation,” February 6, 2003.
http://www.dtic.mil/whs/directives/corres/pdf/i85002_020603/i85002p.pdf

Department of Defense Manual 5200.1, “Acquisition Systems Protection
Program,” March 1994.
http://www.dtic.mil/whs/directives/corres/pdf/52001m_0394/p52001m.pdf

Department of Defense Manual 5220.22, “National Industrial Security Program
Operating Manual,” (NISPOM) January 1995, Including July 1997 and
February 2001 changes to NISPOM.
http://www.dtic.mil/whs/directives/corres/html/522022m.htm
NISPOM Supplement:
http://www.dtic.mil/whs/directives/corres/html/522022ms.htm

Interim Defense Acquisition Guidebook, October 17,2004.
http://akss.dau.mil/dag/DoD5000.asp

Department of Defense Regulation 5200.1, “Information Security Program,”
January 1997. http://www.dtic.mil/whs/directives/corres/html/52001r.htm
Department of Defense Regulation 5200.2, “Personnel Security Program,”
(change 3), February 23, 1996.
http://www.dtic.mil/whs/directives/corres/html/52002r.htm
Department of Defense Regulation 5200.8, “Physical Security Program.”
May 1991. http://www.dtic.mil/whs/directives/corres/html/52008r.htm

Department of Defense Regulation 5220.22, “Industrial Security Regulation,”
December 1985. http://www.dtic.mil/whs/directives/corres/html/522022r.htm

DoD Information Assurance Vulnerability Alert (IAVA) Program,
December 30, 1999. http://iase.disa.mil/policy.html

DoD Web-Site Administration Policies & Procedures, November 25, 1998.
http://www.defenselink.mil/webmasters/policy/dod_web_policy_12071998_with_
amendments_and_corrections.html




                                   19
DoD Pamphlet 5200.1, “DoD Guide to Marking Classified Documents,”
April 1997. http://www.dtic.mil/whs/directives/corres/html/52001ph.htm




                                  20
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Intelligence
Under Secretary of Defense for Acquisition, Technology and Logistics
Deputy Under Secretary of Defense (Laboratories and Basic Sciences)

Department of the Army
Auditor General, Department of the Army
Inspector General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy
Naval Inspector General

Department of the Air Force
Auditor General, Department of the Air Force
Inspector General, Department of the Air Force

Other Defense Organizations
Director, Defense Test Resource Management Center
Director, Program Integration, Internal Management Review, Missile Defense Agency




                                            21
Team Members
The Department of Defense Office of the Deputy Inspector General for
Intelligence, prepared this report. Personnel of the Department of Defense Office
of Inspector General who contributed to the report are listed below.

Shelton R. Young
Donald A. Ragley
David Ingram
Jacqueline Pugh




                                   22
